<html>
<title> - RADIO FREE EUROPE/RADIO LIBERTY AND VOICE OF AMERICA: SOFT POWER AND THE FREE FLOW OF INFORMATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
               RADIO FREE EUROPE/RADIO LIBERTY AND VOICE 
                  OF AMERICA: SOFT POWER AND THE FREE 
                          FLOW OF INFORMATION 

=======================================================================


                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON EUROPE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 23, 2009

                               __________

                           Serial No. 111-24

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/


                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-255 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California             TED POE, Texas
SHEILA JACKSON LEE, Texas            BOB INGLIS, South Carolina
BARBARA LEE, California              GUS BILIRAKIS, Florida
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                         Subcommittee on Europe

                    ROBERT WEXLER, Florida, Chairman
JOHN S. TANNER, Tennessee            ELTON GALLEGLY, California
BILL DELAHUNT, Massachusetts         GUS BILIRAKIS, Florida
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
MICHAEL E. McMAHON, New York         TED POE, Texas
SHELLEY BERKLEY, Nevada              JOHN BOOZMAN, Arkansas
BRAD MILLER, North Carolina          BOB INGLIS, South Carolina
DAVID SCOTT, Georgia                 J. GRESHAM BARRETT, South Carolina
JIM COSTA, California
               Jonathan Katz, Subcommittee Staff Director
          Eric Johnson, Subcommittee Professional Staff Member
          Richard Mereu, Republican Professional Staff Member
                    Mariana Maguire, Staff Associate























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Jeffrey Gedmin, Ph.D., President and CEO, Radio Free Europe/Radio 
  Liberty........................................................     7
Mr. Danforth Austin, Director, Voice of America..................    15

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Jeffrey Gedmin, Ph.D.: Prepared statement........................    10
Mr. Danforth Austin: Prepared statement..........................    17

                                APPENDIX

Hearing notice...................................................    44
Hearing minutes..................................................    45
The Honorable Robert Wexler, a Representative in Congress from 
  the State of Florida, and Chairman, Subcommittee on Europe: 
  Prepared statement.............................................    46
The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California: Prepared statement....................    48


 RADIO FREE EUROPE/RADIO LIBERTY AND VOICE OF AMERICA: SOFT POWER AND 
                      THE FREE FLOW OF INFORMATION

                              ----------                              


                        THURSDAY, JULY 23, 2009

                  House of Representatives,
                            Subcommittee on Europe,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:33 a.m., in 
room 2172, Rayburn House Office Building, Hon. Robert Wexler 
(chairman of the subcommittee) presiding.
    Mr. Wexler. The Europe Subcommittee will come to order.
    I want to welcome our two witnesses, Dr. Jeff Gedmin, 
President of Radio Free Europe and Radio Liberty, and Dan 
Austin, director of Voice of America. We are extremely 
fortunate to have two of the most articulate and ardent 
supporters of international broadcasting and freedom of the 
press testifying on the continued importance of U.S. 
international broadcasting, and its role in ensuring the free 
flow of information.
    While there is certainly a place for constructive and 
critical debate in Congress, the administration, the 
Broadcasting Board of Governors, and among broadcasters 
regarding the role, content, scope, and independence of 
international broadcasting, I am convinced U.S. international 
broadcasting is an indispensable smart power tool, given the 
foreign policy challenges facing the United States, the high 
level of anti-Americanism abroad, and a disconcerting decline 
in freedom of the press globally.
    This hearing comes at a critical time as the world's most 
repressive regimes, in places such as Iran, crack down, 
suppress, and stifle the freedom of expression by the media. 
Radio Free Europe/Radio Liberty and Voice of America are 
critical smart power tools that are on the front line of 
international broadcasting, providing unfettered information 
globally in multiple language and formats, and acting as media 
surrogates where freedom of the press does not exist.
    I strongly condemn, as I know all of my colleagues do, 
censorship and the intimidation of the press in Iran, Russia, 
and globally. It is critically important that the United States 
support those individuals around the globe seeking access to 
news and other forms of information. The Twitter revolution in 
Iran, and the Iranian regime's immediate and violent clampdown 
on media freedoms, is a reminder that media transparency is one 
of the greatest threats to the rule of autocratic regimes.
    President Obama has made international broadcasting a top 
priority for American foreign policymakers, and it is 
imperative that Congress provide additional funding and 
resources to give U.S. international broadcasters the tools 
they need to ensure the free flow of information. Congress must 
also examine closely the export of American technology to other 
nations that use technology to monitor and suppress freedom of 
expression and press, especially on the Internet.
    In 2009, many Americans take media freedom more or less for 
granted. RFE/RL provides a voice, as well as an outlet, to 
millions of people that would otherwise not have one. 
Additionally, despite decades of technological advances, there 
are still places globally where the infrastructure to keep 
citizens informed is simply not available. VOA and RFE/RL fill 
this void by bringing timely, factual information to 
populations that otherwise would be kept in the dark.
    When I recently visited RFE/RL headquarters in Prague, I 
was greatly impressed that its broadcasts have an overwhelming 
share of the radio market in Afghanistan. Meeting with RFE's 
Afghan service, I learned more about RFE's direct interaction 
with its audience, including letters by the bag full, phone 
calls, e-mails, cell phone text messages, and even scrolls that 
were meticulously crafted and delivered to RFE/RL from 
Afghanistan.
    As both Mr. Austin and Dr. Gedmin know, international 
broadcasting is not without risk. It often involves 
broadcasting in conflict zones like Iraq, Iran, and 
Afghanistan, where journalists are too often threatened, 
attacked and killed. Additionally, VOA and RFE/RL must address 
the concerted, round-the-clock effort by some governments to 
block the delivery of programming, regardless of the medium or 
technology.
    Voice of America, Radio Free Europe/Radio Liberty, should 
be commended for promoting freedom of the press and democracy 
in an increasingly difficult and dynamic global information 
environment. I applaud both of you gentleman for your efforts 
and leadership and look forward to hearing your assessments on 
whether VOA and RFE/RL are successfully fulfilling your mission 
to ``promote freedom and democracy and to enhance understanding 
through multimedia communication of accurate, objective, 
balanced news, information, and other programming about America 
and the world to audiences overseas.''
    What I would like to do at this point is give my colleagues 
who have so graciously joined us this morning an opportunity to 
make opening remarks, if they will. I will reserve Mr. 
Gallegly's time, should he be here.
    With everyone's indulgence, Mr. Wilson was here bright and 
early, so I will ask Mr. Wilson if he would like to begin.
    Mr. Wilson. Thank you very much.
    Chairman Wexler, thank you for your introductory comments. 
We may hit a height of bipartisanship today, and that is that I 
truly see members here from both parties who truly appreciate 
Voice of America, Radio Liberty, and Radio Free Europe. I want 
to commend you.
    Who would have imagined? Just 20 years ago today, nobody 
projected, November 9th, 1989, the collapse of the Berlin Wall 
and the liberation of hundreds of millions of people throughout 
the world; and I really believe that your efforts and your 
predecessors' helped make that possible. I know that was backed 
up. President Vaclav Havel of the Czech Republic has given such 
accolades that indeed freedom and democracy were enhanced and 
the spirit was kept alive.
    And I have seen it firsthand. Last year, I was in Bulgaria 
and Romania. Everywhere I went, there were references, from my 
first visit to Bulgaria in 1990, references to the fact that 
they knew of a better life, a better world, through your 
efforts.
    It is exciting to me to see the new media opportunities 
that you have. I can't wait for you to tell the American 
people.
    I have had the privilege of being on China Service, where 
it was broadcast, television with call-in, and it never 
occurred to me that I would be speaking to people from Xian or 
Kunming. And my dad served there during World War II with the 
Flying Tigers.
    So I am so hopeful that people around the world can learn 
about our country, but also learn about the benefits of 
freedom, democracy and free markets.
    So I want to thank you and commend you. And I look forward 
to working with Chairman Wexler. This is an amazing 
achievement, that we will be working together, all of us. So 
thank you very much.
    Mr. Wexler. Thank you. That is terrific. Bipartisanship is 
always a good thing, generally speaking.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Radio Free Europe/Radio Liberty and Voice of America, they 
are our branding organs for the United States of America 
abroad. I often wondered who would have happened, especially 
during World War II, if there was no Radio Free Europe. They 
were there long before we got CNN and Fox News Channel and all 
the cable broadcasts that we have now around the world. It was 
Radio Free Europe and it was voice of America that really 
shined the light on what America stands for.
    We all know the importance of marketing, and certainly we 
as politicians have had to brand ourselves through the media, 
lest someone else do it for us. And in marketing, in the 
marketing world, it becomes necessary from time to time for 
rebranding, for engaging in an initiative to change the 
public's perception of who and what we are and what we are 
trying to sell. And never before in recent history has there 
been a more necessary time for rebranding and letting the world 
know truly that America is that shining beckon on a hill.
    In my opinion, Radio Free Europe/Radio Liberty and Voice of 
America are, at their core, communications and marketing tools. 
Regardless of what they are reporting on or the programs they 
run, they are, in essence, selling and branding our Nation, 
America. Every day, Radio Free Europe/Radio Liberty and Voice 
of America are on the front lines of shaping what the world is 
thinking about us.
    However, right now, the American brand is damaged. We need 
to understand that.
    I get around the world often, maybe three or four times a 
year, as a member of our NATO Parliamentary Assembly and on 
various codels, and the challenge is there. We have and we must 
live up to our ideals and also understand that we have got to 
repair the damage to our reputation around the world. Critical 
to this is Voice of America, Radio Free Europe, and Radio 
Liberty. We are indeed that shining beckon of democracy and of 
freedom, and we must make sure we are perceived as that. It is 
time for America to rebrand itself, to be what we know we ought 
to be and what we stand for. Radio Free Europe/Radio Liberty 
and Voice of America once again are vital to those efforts.
    I have been on Voice of America, most recently 2 months ago 
or maybe 1 month ago, when I was speaking to all of the people 
of China, and I felt real good about that. I worked all night 
to prepare myself for that, because China is so vital to our 
future as a planet and as an economy.
    So I know firsthand the quality of the work that they 
produce. I have been on Radio Free Europe as we have discussed 
our NATO challenges, and I know firsthand the work that they 
are doing in reaching audiences around the world who have 
limited exposure to the American experience and western media.
    As such, I am strongly in support of their efforts and 
encourage my colleagues to support them as well. We need to 
ensure that they have the resources, both in terms of personnel 
and money, in order to complete their mission; and I assure you 
that I stand at the front of the line to help them to receive 
these vital resources that they need.
    It has never been more vital to us to improve what the 
world thinks about us, for we are indeed the leader of the 
world, and we will need governmental partners in all of these 
nations in our endeavors around the world. That will invariably 
mean that these governments will need popular support from 
their people. So Radio Free Europe/Radio Liberty and Voice of 
America will help us build that support.
    When I was in college, there was an African American 
reporter by the name of Mal Goode who worked for Voice of 
America. And after I talked with him, I said, one day I want to 
be on Voice of America. And surely 1 month ago I was, and it 
was a great experience.
    Thank you, Mr. Chairman. I yield back.
    Mr. Wexler. Thank you. That was the most listened-to 
program I am sure ever in the history of Voice of America.
    Mr. Scott. Certainly in China.
    Mr. Wexler. Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman.
    I think there is no doubt that the neo-Marxist left and the 
hard left have done quite a number on the U.S. reputation 
around the world, and radical Islamist broadcasts haven't 
helped either. No doubt some of our own missteps in foreign 
policy have hurt us as well.
    But a lot of the broadcasts that you get out of 
totalitarian regimes against the U.S., and certainly a lot of 
the broadcasts that I listen to, the translations of radical 
Islamist broadcast, have to do with issues other than whatever 
missteps we have made in foreign policy. And over the years, I 
think it has become very, very clear that if we want to 
engage--and certainly we did a lot of this during the Cold 
War--if we want to engage and set a stage for an outcome where 
people really understand and have an opportunity through 
surrogate radio to get other information, we have to use 
instruments like RFL. We have to use Radio Free Europe/Radio 
Liberty models where we didn't use it.
    I carried legislation to broadcast into what is now 
formerly Yugoslavia. We were not able to get that up and 
running until the bombs were falling on Serbia. I spent years 
trying to get it implemented. The former Yugoslavia desk was 
opposed. Serb interests were opposed to us doing that. So all 
people heard in Yugoslavia was hate radio.
    I remember a Croatian journalist with tears in his eyes 
saying to me when I was there during the civil war, he said to 
me, ``Finally, the radio is up and running.'' But for all of 
those years, unlike in Czechoslovakia, people weren't able to 
hear the other side of the story. He said, ``In Czechoslovakia, 
they split the country by plebiscite without the loss of a 
single human life.''
    He said, ``I credit that to the ideals that Radio Free 
Europe/Radio Liberty gave people, and the Slovaks and Czechs 
were able to work this out, unlike the wars that are raging 
here in Yugoslavia, where we are working it out to the death.'' 
He said, ``One of the great errors you made was in not getting 
those broadcasts up and running.''
    I also authored the legislation for Radio Free Afghanistan 
broadcasts, but we didn't get those up and running until after 
Mussaf's death and it became clear to the United States, after 
5 years of trying to get it implemented, that it was important 
that something offset Sharia broadcasts, the hate radio 
broadcasts that the Taliban were running that were funded 
through al-Qaeda and other radical Islamic organizations. That 
kind of broadcasting is now all over Central Asia.
    I carried the legislation to expand Radio Free Asia 
broadcasting. Again, it is very disconcerting and one of the 
issues we should look at, a U.S. company out of Texas sold the 
technology out of China to help them block the broadcasting. 
What we have done is on Tinian Island erected the largest 
transmitter in the world. We have new methodologies.
    But we have got to keep ahead of these regimes, because 
repressive governments understand something we take for 
granted, and that is that the free flow of information is a 
mortal threat to them.
    And these stringers that we have on the ground--and, like 
Chairman Wexler, I have talked to some of these stringers and 
some of these folks that we have at headquarters in Prague, the 
risks that they are taking in these countries to get 
information out there and what is done in terms of the great 
bravery that they show. But the threat under which they operate 
shows the amount of thought that we have to apply in terms of 
trying to protect them, getting resources deployed and blocking 
this jamming as we go forward.
    So I am very much cognizant. They say to control 
information is to control the battlefield. In Afghanistan, that 
is going to be increasingly true because of the amount of 
influence that the Gulf states are putting in terms of 
resources into the hands of radical Islam in that area.
    Fortunately, 70 percent of the Afghans now listen to Radio 
Free Afghanistan, but all through that region, people are 
listening to Sharia radio still. It is a war of ideas, and you 
gentlemen are going to have to be part of the solution to this.
    Chairman Wexler, thank you again for this hearing.
    Mr. Wexler. Thank you.
    Mr. Sires of New Jersey.
    Mr. Sires. Thank you, Chairman. I want to thank you for 
holding this hearing, and I couldn't concur more with my 
colleagues on all of the things that have been said here.
    I want to thank you on behalf of all those people that 
listen to you and listen to the truth.
    Two years ago, I took a bipartisan trip to Poland, 
Czechoslovakia, and Hungary, and in the discussions that we had 
with different people that we met, they sang the praises of the 
work that you do and the important role that you played in all 
the changes that occur. So I just want to say thank you.
    I am looking forward to what you have to say, and I am 
looking forward to supporting whatever help you need to make 
sure that this continues to be a viable voice for all those 
people that cannot hear what the rest of the world is doing.
    Thank you.
    Mr. Wexler. Thank you.
    I want to genuinely thank my colleagues for their unusually 
thoughtful remarks this morning, which I think is a great 
indicator of the support that your efforts have in a bipartisan 
way.
    At this point, I would like to read the biographies of our 
two witnesses and then go forward with their testimony.
    Our first witness is Dr. Jeffrey Gedmin, President and CEO 
of Radio Free Europe/Radio Liberty. Prior to assuming this role 
in 2007, Dr. Gedmin served as the director of the Aspen 
Institute in Berlin and prior to that was a resident scholar at 
the American Enterprise Institute, as well as executive 
director of the New Atlantic Initiative, where he worked with 
policymakers, journalists, and businesses to revitalize and 
expand Atlantic democracies.
    Dr. Gedmin has authored several widely published articles 
on U.S. Foreign policy and public diplomacy that have appeared 
in leading U.S. and European publications, and authored the 
book, ``The Hidden Hand: Gorbachev and the Collapse of East 
Germany.''
    Dr. Gedmin was also executive editor and producer of the 
award winning 1995 PBS television program, The Germans: 
Portrait of a New Nation, and co-executive producer of the 207 
documentary, Spain's 9/11 and the Challenge of Radical Islam in 
Europe.
    Dr. Gedmin holds a Ph.D. in German area studies and 
linguistics from Georgetown University.
    Our second witness is Mr. Dan Austin, director of Voice of 
America. Mr. Austin assumed this post in 2006 after a 36-year 
career with Dow Jones and Company, where he last served as 
chairman and CEO of the company's community media subsidiary. 
Mr. Austin also served as vice president for circulation and 
director of corporate relations for Dow Jones.
    Previously, he worked for the Wall Street Journal, 
beginning his career there in 1970 as a staff reporter in the 
Dallas bureau. Then, in 1985, he advanced to deputy news editor 
in New York and became editor of Wall Street Journal Reports in 
1986. Mr. Austin served as Vice President and General Manager 
of the Journal and served on the board of its first magazine, 
Joint Venture Smart Money.
    Mr. Austin served with the U.S. Army in Vietnam and was 
decorated with a Bronze Star and an Air Medal for his service.
    Gentleman, it is our privilege to have you with us.
    Dr. Gedmin, please proceed.

 STATEMENT OF JEFFREY GEDMIN, PH.D., PRESIDENT AND CEO, RADIO 
                   FREE EUROPE/RADIO LIBERTY

    Mr. Gedmin. Mr. Chairman, thank you, and thanks to your 
colleagues for their very powerful, very eloquent statements.
    Mr. Chairman, thanks to you for your initiative and 
leadership in convening this meeting this morning. You 
mentioned your visit recently to Radio Free Europe's 
headquarters in Prague and you kindly praised our Afghan 
service and the interaction with the audiences and the bags and 
bags of letters we get each week.
    Congressman Royce, you know a lot about that. You led on 
this from the beginning. You failed to mention that you helped 
a little bit, too, and you were kind enough to do an interview 
for us that reached those people and took part in that 
interaction.
    To you, Mr. Chairman, and everybody on the committee, thank 
you for holding this meeting, this hearing today, for many 
reasons, but one that you might have overlooked, if I may say. 
We do have in fact, as you alluded to, have hundreds--and I am 
certain I speak for Dan, also--hundreds of people who work for 
us, most of whom come from the countries where we broadcast; 
and I think that at times they can feel a little bit out-of-
sight, out-of-mind. As your colleague said, they risk a great 
deal, and I think this hearing that you convened this morning 
is a tribute to them, and I thank you for that. It is deeply 
appreciated.
    Mr. Chairman, I met recently a young Czech woman who asked 
me where I worked, and I told her where, and it didn't ring a 
bell with her. She must have been 21, 22, 23.
    She said, ``Okay, Radio Free Europe, okay.'' She said, 
``What do you do? What does it do?''
    I told her a little bit about what we do. Then a light bulb 
went on and she said, ``You know, my grandfather after the 
Second World War listened to Radio Free Europe,'' and she said, 
``I remember him getting so frustrated and angry with the 
changes in our country after the Second World War and communism 
and dictatorship that he took his radio one day, he put it in 
the window, and he started blasting it down to the street 
below.'' And the next thing--a true story; as I say, you can't 
make this sort of thing up--she said, ``then they came for my 
grandfather, took him away, and we never saw him again.'' She 
said, ``Now I know what Radio Free Europe is. It didn't ring a 
bell at first.''
    If you are in my business, you come across these stories 
literally all the time and they remind you of some very basic 
things. One is the power of free media as an indispensable part 
of civil society, of democracy, of freedom.
    You and some of your colleagues alluded to the fact that it 
was only 20 years ago--I am living in a city, Prague that only 
20 years ago was the world of Soviet communism, the Berlin 
Wall, Iron Curtain, and it is gone. It is down.
    You were there this summer. I don't know how deeply you 
think about it when you come, but I know how deeply I think 
about it every day when I work there. The Czech Republic is a 
member of NATO. The Czech Republic is a member of the European 
Union. The Czech Republic is a key ally of the United States on 
everything from culture to commerce. Twenty years ago, it was 
profoundly different.
    You were there this summer, Mr. Wexler. The President of 
the United States was there this summer in Prague. The 
Secretary of State was in Prague this summer. Vaclav Havel, Mr. 
Wilson referred to him, he was with us recently, too. He lives 
in Prague.
    You can't make this sort of thing up. A man who was a 
chain-smoking playwright, who became a leader of a democracy 
movement and then President of a free Czech Republic. He came 
over to our new building about 3 months ago. He actually ran 
for us an editorial meeting where he, President Havel, ex-
President Havel, sat with Afghan colleagues, Iranian 
colleagues, Russian colleagues, Bosnian colleagues, Ukrainian 
colleagues, and he told them that what they do today is every 
bit as important as what we did then.
    And he told them, you know, it is not just about news and 
information, and we need that, reliable, accurate, honest, 
truthful. He told them, Vaclav Havel said this, that RFE/RL 
provides intellectual nourishment, moral inspiration, and the 
very seeds of civil society and democratic growth and 
development.
    Mr. Chairman, let me make two points; and then I will 
conclude.
    I think when people ask me, including Americans when I 
travel, including my own family in North Carolina, who ask me, 
why does it make sense? What is it? What does it do? Why should 
I pay for it as an American taxpayer? I say there are two 
things to consider. I am speaking for my company, but I think 
Dan Austin broadly would sign on to these things, too, if I may 
say.
    The first thing is this is a working organization, an 
institution of ideals and idealism, and it is in the best of 
American traditions. It is bipartisan, it supports American 
values, and it supports American values that, as the President 
reminds us frequently, are universal.
    When I travel to our countries, whether it is Central Asia 
or Russia, whether it is the Caucuses, I often meet with 
representatives of foreign governments who don't always like 
what we do, and they suggest at times that we are out to 
propagandize or dictate or impose or manipulate. And I always 
say, we don't do that. It is not the mission. It is not the 
character. It is not the spirit.
    I try, Mr. Chairman, in a non-patronizing way, if I may 
say--I always bring this little blue book with me, and when I 
sit with that government official of a foreign country, I say, 
Mr. Minister, this is the United Nations Declaration on 
Universal Human Rights. It is not an American dictate. It is 
not an American partisan issue. And article 19 says that every 
citizen of this planet should have access to a free flow of 
information and ideas, regardless of border and frontiers.
    That is all we do. Nothing more, nothing less. It is an 
American value. It is a universal value, and it is very 
idealistic.
    The second point I make is it is idealistic, but we are not 
in the charity business. It is not a charity. What we do 
supports American interests. It supports enlightened American 
interests. And I believe, Mr. Chairman and colleagues, if you 
believe in development and democracy--or let me put it another 
way, if you believe in combating and fighting things like 
nationalism and extremism, if you believe in fighting and 
combating things like anti-Semitism and anti-Americanism, if 
you are an American policymaker, you have to avail yourself of 
the full spectrum of policy, opportunities and instruments.
    But I don't think you get any traction if you don't 
believe, support, and pursue the free flow of information and 
ideas, discussion, debate, dissent, no matter what country, 
what time, what place.
    Let me conclude. The Secretary of State came. You came this 
summer. The President of the United States came this summer. We 
have the Treasurer, Vaclav Havel, living and visiting us 
frequently there in Prague.
    The Secretary of State came this summer, and she said this 
kind of broadcasting is smart power at its best. And, of 
course, we like hearing that. But we think it is true. We think 
it is smart power at its best because it is cost-effective and 
it actually works.
    I am very eager to hear from you about what you are 
interested in and what Dan and I do and what our organizations 
do, but I will tell you what, the list of examples of how it 
works is endless.
    It can be profound, like in Afghanistan where a suicide 
bomber, a would-be suicide bomber calls up and says, ``I have 
had a change of heart. I listened to you. There is another way. 
It is an alternative. I want out.''
    It can be very simple and practical, and maybe equally 
profound, as a program we do in Kiev on maternity options for 
health care, or in Ukraine recently there was a study on the 
most polluted cities in Ukraine. Well, we are the ones who not 
only reported on the report but told our listeners, if you have 
kids, how do you care for them? How do you protect them? How do 
you address their health concerns if you are living in a 
polluted city?
    Well, 20 years ago, part of Europe has prospered 
tremendously, the Czech Republic. But I don't have to tell you 
that the job isn't done. It was 20 years ago that a President 
called for a Europe whole and free, and we are about halfway 
there. Maybe we are 60 percent there, or 47 percent there.
    There is an immense amount to be done. I think we play an 
important role. We like to be of service to you. We would like 
to be accountable and of service to the American taxpayers.
    If I may say, in conclusion, like the countries we 
broadcast, Mr. Chairman, Radio Free Europe/Radio Liberty is a 
work in progress, and I invite you to help us make it better. I 
think we are going to profit from the discussion this morning.
    Thank you, sir.
    [The prepared statement of Mr. Gedmin 
follows:]Jeffrey Gedmin.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Wexler. Thank you. Thank you very much.
    Mr. Austin, please.

  STATEMENT OF MR. DANFORTH AUSTIN, DIRECTOR, VOICE OF AMERICA

    Mr. Austin. Good morning, Mr. Chairman, distinguished 
members of the subcommittee.
    I really appreciate the opportunity to discuss the Voice of 
America and the contribution we make to a very fundamental 
tenet of our democracy, the free and unfettered flow of 
information, opinions and ideas.
    I would like to submit rather lengthy testimony for the 
record, if that is all right, and then just briefly summarize 
in my oral statement here.
    Mr. Wexler. Without objection.
    Mr. Austin. VOA has been a trusted purveyor of a 
quintessentially American style of journalism since 1942 when 
our very first broadcast made to Nazi Germany proclaimed this: 
``The news may be good, the news may be bad. We shall tell you 
the truth.''
    Today, the Voice of America is the largest U.S. 
international broadcaster, reaching out around the world in 45 
languages, distributing news and information by radio, by 
television, the Internet, and social media platforms. In fact, 
this hearing today is being covered in part through Twitter, 
with my colleague behind me here sending tweets to a VOA news 
Twitter feed and a VOA Facebook page for redistribution around 
the world.
    VOA's conventional audience also continues to grow. We have 
an estimated 134 million people who now turn to our radio and 
television programming every week. Now, I can't tell you that 
every one of those 134 million people like America or like 
American policies. We do know, however, that they listen to VOA 
regularly, they interact with us, and they depend upon us to 
sustain their right to accurate, trustworthy news and 
information about the world, about their region, about their 
nation.
    We also know our programs enhance their understanding of 
the United States, of our policies, our culture, and our 
people. We attract the high numbers of listeners and viewers 
that we do by striving to produce programs that, as both the 
VOA charter and the U.S. International Broadcasting Act have 
it, are consistently reliable and authoritative, as well as 
accurate, objective, and comprehensive.
    Perhaps more important, by presenting news and information 
in this way and to these standards, we achieve a credibility 
with our audiences that lets them cut through the din of shrill 
propaganda and the fog of misinformation and disinformation 
that make up so much of the world's media these days.
    Before I talk more about VOA, I would like to take a moment 
to salute VOA's 1,300 regular employees and the hundreds more 
of VOA stringers and contractors worldwide. It takes people, 
often very brave people working in dangerous places, to produce 
the reports that form the basis of our 1,500 hours of 
broadcasting every week.
    The Taliban, to pick one example, are targeting VOA 
stringers in Pakistan's northwest frontier province to prevent 
us from simply gathering the news. Recently, these militants 
looted and then blew up the house of Rahman Bunairee earlier 
this month in retaliation for his reporting for the Voice of 
America. And in Somalia, where five journalists have been 
killed so far this year, VOA stringers are constantly 
threatened by Al-Shabab terrorists.
    About half of VOA's audience accesses our programming 
through television, which in many countries, including places 
in the Balkans, Iran, Central Asia, has become the preferred 
way of getting news and information. In Iran, for example, 
something like 96 percent of the people there say they watch 
television daily. Almost 30 percent tell us that they watch 
VOA's Persian language television programming every week. In 
Albania, some 64 percent watch VOA television in Kosovo alone.
    Then, of course, there is Russia, which presents a special 
challenge for the Voice of America and indeed for all 
international broadcasting. Tightening government control over 
television and many print media and radio outlets has cost us 
our Russian radio and television affiliates. This has prompted 
VOA to redefine our idea of traditional content delivery.
    The result: In Russia, we are now a multimedia, Web-based 
service produced for a country where Internet usage is growing 
rapidly. At a very critical juncture in United States-Russia 
relations, this strategy allows audiences to increase their 
understanding of American policies, politics and culture and 
American views of Russia. It also, frankly, galvanizes 
conversation among its audience through utilization of these 
so-called Web 2.O tools.
    The footprint of this service's efforts can already be seen 
in the Russian market, with over 60,000 views per month on 
VOA's Russian YouTube site; and indeed some 65 percent of those 
YouTube users have given our Russian-service-produced videos a 
rating of five stars. That is the highest rating available.
    The recent protests in Iran and the turmoil along the 
Pakistan-Afghan border are the latest examples of VOA's ability 
to use both old media and new media in the furtherance of our 
mission. I have got some video highlights I would like to show 
you briefly of our multimedia efforts in both of these critical 
regions.
    [Video shown.]
    Mr. Austin. To conclude, Mr. Chairman, I would like to 
thank the Congress for its support of the Voice of America and 
indeed of all of U.S. international broadcasting. We believe 
that, dollar for dollar, we are one of the better investments 
that the American taxpayer can make. We are all very proud of 
our role in bringing light to dark corners and, in the case of 
Voice of America, helping millions to see America and Americans 
as we truly are.
    Thank you.
    [The prepared statement of Mr. Austin 
follows:]Danforth Austin

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Wexler. Thank you to both gentlemen.
    I want to thank Mr. Delahunt for joining us and give him an 
opportunity before we start the questioning to say a few words, 
if he wishes.
    Mr. Delahunt. No, thank you.
    Mr. Wexler. Okay, even better.
    Let me begin then.
    Yesterday, Mr. Austin, I was somewhat fascinated when we 
had an opportunity to speak and you, just in an organizational 
sense, shared with me why it is we have a Radio Free Europe and 
a Voice of America. Could you just share with the committee and 
the audience why we have both and the two roles that you play 
in a complementary fashion?
    Mr. Austin. I would be happy to, Mr. Chairman. Jeff, please 
weigh in as well. We very much see our roles as complementary 
to each other.
    As you mentioned earlier, sir, Radio Free Europe/Radio 
Liberty functions very much as a surrogate media, and that is 
to say they function as media would function if media were 
allowed to be free in the countries where they operate.
    The Voice of America functions more as an international-
news-gathering organization. We report on local events, but we 
put them in context of the region and the world, and we also 
explain to that world about our country, our policies, our 
people and our culture. So we have different but very 
complementary roles. If you line up our content on any given 
day, you will see that. And we both support and reinforce I 
think each other's mission.
    Mr. Gedmin. It is hard to be more succinct or eloquent than 
that, but I will just reinforce it.
    We listen to our audiences very carefully, and we--Dan and 
I and our colleagues--hear regularly that they need surrogate 
broadcasting. They need information that is about them, that is 
reliable and accurate and fair-minded. And that is principally 
what we do as a so-called surrogate broadcaster.
    I mentioned in the Ukraine quality maternity care or how do 
you cope with problems of pollution. It may be a corruption 
issue. It may be social affairs, domestic development, a wide 
variety of things that they would have if they had their own 
free, independent media.
    We like to say we are the oxygen of civil society. We 
support and we promote all of those good democratic values that 
hopefully will mature into institutions and the real habits and 
values and behavior of democracy.
    But we, too, Mr. Chairman, hear constantly about Dan's work 
and Voice of America. CNN is not enough. They want quality, 
rich, broad programming that offers a U.S. perspective and 
illuminates, gives a window on American society, American 
thinking, American culture, American politics, in a serious, 
credible, truthful way.
    So I do believe that they are distinct, but I am a strong 
believer that they are complementary, mutually reinforcing and 
both very much needed.
    Mr. Wexler. Thank you.
    I just want to ask one more specific question, and then I 
will turn it over to Mr. Royce.
    As both of you I know are very familiar, recently several 
quite prominent Central and European leaders, including Lech 
Walesa and former Czech President Havel, sent an open letter to 
President Obama urging him to reinvest in NATO and 
transatlantic nation relations, and to make certain that the 
new engagement with Russia does not come at the expense of our 
allies in Central and Eastern Europe.
    One of the things that struck me in their letter was a 
somewhat ominous point of view about the region in terms of the 
next 5-10 years with regard to the challenges, the foreign 
policy, and domestic policies that those countries face, 
particularly as they relate to Russia, and the concern that the 
United States was not necessarily as focused as it might need 
to be on this region.
    Many of the people who signed that letter were in the 
vanguard of the democratic, democracy, and human rights 
movements in those countries. They were several of the 
principals that were responsible for bringing down the Iron 
Curtain.
    What suggestions might you have in terms of the role of 
public diplomacy as, Dr. Gedmin, you very eloquently said, 20 
years ago we never could have imagined where the Czech Republic 
and countries like the Czech Republic would be today. But in 
terms of 5 years from now, 10 years from now, given the fairly 
significant challenges that these countries now face in what 
may be referred to as the next phase of their evolution, what 
role does public diplomacy and international broadcasting play, 
particularly in Central and Eastern Europe, and do we have the 
resources, do you have the resources, to successfully do what 
you think you need to do?
    Mr. Gedmin. Thank you, Mr. Chairman. I will take the first 
crack at that. There is a lot there that you put out.
    First of all, if you care about alliances--and we do--and 
our principal alliance remains with European democracies for a 
variety of reasons. We care about global perspective, but you 
can't be soft at the center and then build on the periphery. 
You have to be solid at the center, and we are partially solid 
at the center.
    We said before that in the project of Europe Whole and 
Free, we have made enormous progress in two decades, but the 
progress is not complete. I learned myself, I have to tell you. 
I took this job 2 years and 2 months ago, and when we were 
facing very difficult budget pressures, very difficult. You 
have to make choices. You have to prioritize. I will be quite 
candid with you. I told our board and I told my colleagues in 
Prague, if we have to cut, I think we ought to cut Southeastern 
Europe and the Balkans, if we have to cut.
    But I will tell you, the last 2 years and 2 months have 
been an education process for me, and I have listened and I 
have learned and I have traveled. I have noted the influence 
that Russia is exerting in that region. I have noticed the 
influence that Iran from the south is trying to exert in that 
region. And we have taken a hard look at new nationalism, anti-
Semitism, extremism.
    I concluded, Mr. Chairman, that it would be a big mistake--
so did my board, the Broadcasting Board of Governors--it would 
be a big mistake, it would be premature to leave Southeastern 
Europe, to leave the Balkans. We are still broadcasting there. 
We intend to still broadcast there.
    I think, What does one do? One recognizes the strategic 
reality of what is done and what is not done, and there is a 
lot not done. One looks at letters like the one that you 
alluded to from Vaclav Havel and others and sees that when 
these things occur and when they are on the rise, extremism, 
nationalism, anti-Semitism, you have to do something about it.
    Well, you asked practically--I will turn it to Dan in a 
moment--what do you do? One thing you do is you show up. You 
don't leave. And we are trying to do that.
    And, by the way, let me applaud the Vice President of the 
United States for an early trip to Belgrade and Kosovo. I was 
in Belgrade about 3 weeks ago. Astonishing. All parts of the 
political spectrum. It means a lot when the United States shows 
up, pays attention, and makes clear that we care about 
stability, security, and democracy in the region.
    I applaud the Vice President also for going to the Ukraine 
and Georgia right after the President went to Russia. Those are 
tangible signals and symbols that the United States remains 
committed and vested.
    The last thing I would like to say is what you don't do, 
Mr. Chairman, is you don't fall for false dichotomies that lead 
you to a direction or a conclusion that you must either be a 
hardheaded realist and care about tough security issues and 
commercial relations--and we care about security and we care 
about business and commercial ties--you have to be either that 
or you are in the human rights business, thoughtful, serious, 
its development, democracy. But that is the other end of the 
spectrum. They are not mutually exclusive.
    That is why you mentioned Russia. Whether it is Russia or 
its neighborhood in Eastern Europe, the Caucuses, Central Asia, 
I think broadly we need a hardheaded policy that looks at 
security and human rights at the same time, business and 
commercial relationships, coupled with human rights and rule of 
law at the same time. It is, after all, what we did in the Cold 
War. We had summits. We had arms control. We talked about a 
variety of hardheaded commercial interests. But we never 
neglected human rights, democracy, and the rule of law.
    So show up, stay engaged, and make sure these things are 
not mutually exclusive; they are part of one integrated policy.
    Mr. Wexler. Thank you.
    Mr. Austin. Jeff is absolutely right.
    I want to be careful here. We don't engage in the conduct 
of foreign policy. We leave that to the professionals at the 
State Department and elsewhere. But, having said that, as you 
look at these different regions, you find different information 
needs that I think both of us are trying very hard to meet.
    I think particularly of Russia. As I mentioned, it is 
incredibly important to keep a conversation going with the 
Russian people. They are at a stage now, especially among 
younger people, where they are at once very nationalistic, feel 
they are back in the game, et cetera, et cetera, but, on the 
other hand, not quite so sure that they are ready to believe 
and take in everything that they hear from the Kremlin.
    This is a great opportunity for RFE/RL and the Voice of 
America to engage in direct dialogue with these people, whether 
through call-in shows, whether through the Internet, blogs. 
Blogs are a big deal in Russia. But we need to do more of that, 
engage and get the conversation going, because otherwise it is 
likely to be very one-sided.
    In countries such as Ukraine, where RFE/RL has a sizable 
radio audience and we have a sizable television audience, we 
probably need to adapt our programming to some of these newer 
realities, more interactivity, more engagement with audiences, 
instead of just we talk, you listen kind of programming. So I 
certainly see room for improvement there. But the level of 
engagement is absolutely critical.
    Mr. Wexler. Thank you.
    Mr. Royce.
    Mr. Royce. Thank you.
    Mr. Gedmin, the Iranian regime has developed, with the 
assistance of European telecommunications companies, a method, 
a rather sophisticated one, for controlling and censoring the 
Internet. Congressman Sherman and I have introduced legislation 
that would prohibit those companies in Europe that were 
involved in that process from doing any business with the 
United States Government.
    Do you think we should apply that same standard to the 
business here in the United States that assisted the Beijing 
regime in developing counterstrategy to try to block broadcasts 
from Radio Free Europe/Radio Liberty or Radio Free Asia? I 
happen to think we should, but I wanted to ask your opinion on 
that.
    Mr. Gedmin. Thank you, Congressman.
    I certainly can't speak for Radio Free Asia, which is a 
different company and a sister organization of ours, and they 
do equally important work there in the surrogate broadcast 
business.
    But broadly speaking, as long as you were kind enough to 
ask, I will give you my best answer. We do have a problem with 
business in the United States in the way it conducts itself 
with hostile regimes and undemocratic rulers. And the problem 
is not, in my view, that we want to restrict free trade. 
Because we believe in markets and believe in free trade. I know 
you do. And we believe fundamentally that this kind of 
capitalism should be tempered if not by regulations or 
sanctions in some instances but, you know, back to democracy, 
by values and habits and behaviors. Democracy isn't a 
formalistic concept. We have elections. It is democracy. It is 
habits, values, and behaviors.
    So the first thing--you didn't ask me this--but I would 
encourage all of us to engage those business leaders in very 
aggressive education about the intended and unintended 
consequence of their transactions.
    Mr. Royce. I am going to ask you later if you could give us 
a list, the chairman and I, of those business executives and 
those companies. Because I think Mr. Sherman, and I, and 
perhaps Mr. Wexler, would certainly be interested in such a 
dialogue with those individuals.
    Mr. Gedmin. I would be happy to help and happy to provide 
that. Because in the majority--I would like to say I am kind of 
an idealistic guy, and in the majority of these instances I 
think these are men and women of good will who want to make 
money and grow an economy and provide for their employees and 
their stockholders. But they may not always know precisely what 
happens, both intended and unintended consequences, first of 
all.
    Second of all, if I may volunteer, European businesses in 
particular fall into trouble in these matters and sometimes I 
think too distinctly from public policy and values and ethical 
obligations.
    The last, Congressman, do you think we should apply such 
sanctions more broadly? Well, you know, education on the one 
hand and then carrots and sticks on the other. We are all human 
beings. And whether it is tax policy or sanctions policy, 
policies that encourage the right behavior and discourage the 
improper behavior I think are always useful.
    Mr. Royce. Thank you, Dr. Gedmin.
    The other question I was going to ask goes to the 
competitive landscape out there. I had an opportunity to go to 
Afghanistan after the government fell, and I asked the driver 
to take me to Radio Free Afghanistan in Kabul. He spoke Dari, 
so I ended up at a Radio Free Afghanistan that was actually the 
Iranian service. But, since I was there, the driver could speak 
Dari, I figured I would go ahead and do a broadcast, because 
Shia Muslims were on the receiving end of the Taliban's hatred.
    But later I got a chance to meet up with Ali Jalali, who 
was the director of our service, and it has become increasingly 
clear to me that this is probably one of the least 
confrontational methodologies in foreign policy but most 
effective, and expanding this further, I believe, across the 
globe, especially where radical Islamists are engaged, is very 
important.
    What I am sharing with you is that Iran clearly is engaged 
in this. You might be able to tell us a little bit about 
Venezuela and Russia in terms of their engagement.
    Lastly, I just wanted to mention that Ambassador Holbrooke 
when I was in Pakistan told me about 150 FM radio stations--
actually, he mentioned that here--in the Swat Valley, 150 radio 
stations, and he likened them to Radio Mille Colline, the hate 
radio in Rwanda, as a major, major gap to be filled. Is that 
gap closing? And, again, what can you tell us about the 
Venezuelan and Russian broadcasts that are going on?
    Mr. Gedmin. I will start, Congressman, and then turn it 
over to Dan, who does broadcast to Venezuela and also 
broadcasts to Russia and Afghanistan.
    First of all, you are right to point out that countries 
like Russia and Iran do understand the value of soft power, 
smart power, information, and the battle for hearts and minds. 
They play and they pay. They are quite serious about their 
investment and their networks.
    They just opened or started a new FM station, I am told, in 
Bosnia, the Iranians did, and it is not pro-American. It is not 
for liberal democracy and pluralism and tolerance and all those 
things.
    I think examples are countless. You are a father of Radio 
Free Afghanistan. I think you know more about it than I.
    From our service--this is why I support spreading it as 
much as possible--the kinds of things that happen on a daily 
basis that have positive powerful effects are countless.
    One, we had students--I told Congressman Wexler this when 
we were in Prague. We had students in Kabul recently call up 
our radio station. Very simple. All the things we take for 
granted. They were disabled students. They said, next week 
there are exams in the university, and there is no handicapped 
access, and we don't think it is fair, and we don't know where 
to turn.
    And then the next moment a minister from the Afghan 
Government is on our radio station saying sorry about that. We 
will fix that. And the next moment others are on the station 
saying, ``But a one-off fix isn't enough.'' We need a debate 
about this, about the handicapping and society's responsibility 
and government's responsibility.
    Sometimes it is a suicide bomber defecting, and sometimes 
it is other things we take for granted that are very practical 
that have to do with civic-minded journalism and people 
learning.
    Some of my Afghan colleagues will say, ``Well, this country 
is not going to be in your sense, Jeff Gedmin, democratic any 
time soon, any period soon.'' But they will adopt values, 
habits, and behaviors that support religious tolerance, that 
eradicates anti-Americanism, that don't promote extremism. It 
flourishes in Afghanistan. It has a grand tradition in that 
country, actually. It is not us. We are not dictating or 
imposing. It comes from them. It is universal.
    In all of these cases, we have tangible benefits. It is 
cost efficient, and it works. It has traction. There is a 
market for Radio Free Afghanistan, by the way. If there weren't 
a market, we wouldn't be there. And Chairman Wexler referred to 
this. If they didn't care, we wouldn't get bags and bags and 
bags of letters every single week. Poetry, music, lifestyle, 
women's rights, religious tolerance. There is a market for it.
    The other guys, they pay, they play, they are competitive, 
they are present, they adapt, and they co-opt our language. 
Radio Free Iran. They don't talk about dictatorship. They talk 
about freedom, they talk about democracy, they talk about a 
republic, and they know they mean something profoundly 
different. It is a very vicious competition.
    I think there is a lot we can do, and it is so cost-
efficient. I don't think in any of these areas, Congressman, 
anybody will look back 10, 20, or 30 years from now and say, 
``You know what, in Pakistan, the Americans really did too much 
of this sort of thing.'' I doubt it.
    Dan, do you want to expand on that?
    Mr. Austin. Well said. Yes.
    In areas, say, the Swat Valley in Pakistan with all those 
Pashtun speakers, our Dewa radio service, we just expanded it. 
We were 6 hours in the evening. We added another 3 hours in the 
morning. We are all countering all those Sharia-law FM folks 
that literally ride around on the back of Jeeps with 
transmitters. It is psychological warfare of the first order.
    This is very hard to measure, to do research in areas like 
this. But we look at, say, the volume to our call-in shows, and 
we get like 300 calls a day, people calling in, cell phones, et 
cetera, wanting to comment, ask questions. We have got the 
funding now. I think Jeff and his folks are going to join us in 
that region, and this again is absolutely a case where you 
can't do too much to counter some of these efforts.
    In some of the other places, Jeff is right, VOA does 
broadcast to Latin America, specifically to Venezuela. I spent 
last week actually in Latin America visiting. I was in 
Colombia, Peru, Bolivia, El Salvador, just to get a sense of 
the market and what was going on.
    Clearly the influence of Hugo Chavez is great and growing. 
Telesur, which is a network that the Venezuelan Government has 
started and is financing, the quality of that network has 
improved substantially. I watched it on television in my hotel 
room. They are good, and they are getting better. As Jeff says, 
it is slick stuff, it really is.
    But it is also pretty clear, talking to journalists and 
other folks in those other countries, that they are looking 
very, very nervously at what is going on in Venezuela. The 
folks in Bolivia, the media people there are looking at Morales 
folks and saying, ``How much longer before the crackdown comes 
to us?'' They have already been accused in their country of 
being unpatriotic, and they figure a shutdown cease and desist 
order can't be too far behind. We have seen certainly in 
Venezuela the crackdown is now extending to local media 
outlets, out in the countryside. Globovision, which was the 
last big cable operator, basically is out of business down in 
that country. So there is absolutely a need for us to step up 
our game in that part of the world, for example.
    Iran, you know, we were both there. I will say on the 
Internet piece of this, especially with Iran, it is interesting 
these countries that do jamming of the Web, and we encounter 
this all the time, the risk they run, because the Web has 
become so integral to everybody's economy, is that they can 
shut themselves down, too.
    We experienced a lot of jamming of other television 
programming in Iran around the recent election. What our 
engineers did, and they have a lot of fun doing this, they 
simply moved our signal to the state broadcasters so those guys 
were jamming themselves.
    There are a lot of things that we can do on the Internet 
through proxy servers, peer-to-peer devices. We have technology 
that, while it can't defeat it, it can certainly combat many of 
these efforts, and we are learning every day and trying to 
apply that technology.
    Mr. Wexler. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Let us continue on Iran for a moment, because it will be 
very interesting. As civil unrest has increased after the June 
12th elections, there has been a crackdown on restrictions of 
journalists. They have kicked out British journalists, other 
Western journalists.
    What measures are you taking to verify that, reports or 
videos or photographs that are submitted to Voice of America 
and Radio Free Europe following the Iranian Government's 
crackdown on foreign journalists and media, and how do you 
respond to the criticisms and accusations that the viewers, 
users in Iran right not be representative of the population 
and, therefore, might not provide an accurate picture of 
popular sentiment throughout the country? How do you verify the 
truthfulness of what you are receiving in to you?
    Mr. Austin. Yes, sir. It is a question that we pay very, 
very close attention to. During the height of the unrest, two 
blocks west of here in our Cohen Building headquarters, we were 
receiving almost a video a minute, it felt like. You are 
absolutely right, this is so-called user-generated content, 
citizen journalism if you will. It is easy to manipulate. We 
had to watch very carefully those videos. We obviously have on 
our staff people who have lived in the country, so they can 
look at locations, time of day, begin to triangulate is this 
real, or was this manufactured. Our technical people were doing 
the same thing. We tried to--in the case of really outrageous 
statements, until we could get some sort of confirmation, we 
would not run them. We watched for the excessive violence.
    Mr. Scott. May I ask what would that confirmation be?
    Mr. Austin. If we could have a second source, for example, 
about a demonstration coming from, say, a wire service; the 
Associated Press was still operating there, or other press 
even, or someone else. We have people from within the country 
that we have dealt with and we know are reliable from past 
experience. We would listen to them as well. But it is a matter 
of triangulation, and I can't tell you that we aren't in danger 
of being manipulated; we just have to guard against that in 
this situation.
    Mr. Gedmin. Thank you, Congressman.
    If I may, that is a particularly intelligent question. I 
sign on to everything Dan says.
    I came across a report recently. I try to keep an eye on 
what is flowing through our Iranian service. As an example, I 
came across a report that we aired on Tehran's securities 
forces. Intelligence forces had raided a student dormitory at 
the university. And we had video and eyewitness accounts that 
the security forces were quite violent. They arrested several 
dozen people. They damaged a great deal of property. And we had 
a quick editorial meeting, and we asked ourselves a question. 
It sounded all plausible, but we asked ourselves the question, 
do we know for a fact that it is an accurate, current account? 
Can we say with certainty that there isn't exaggeration? Three 
people were arrested, maybe 8 people arrested, maybe 30 people 
arrested. Was there violence?
    Dan is right: You look for second sources, you look for 
reliable sources, you look for good editorial judgment to see 
if it smells right, if it feels right. Then, I may add, you try 
to label it, because it is no different from a Snickers bar in 
a way, if I may say. There is a consumer there, and they want 
truth in advertising and want to know where the ingredients 
come from. We try to label it, and use this expression ``user 
generated content.'' We try to make our consumer in Iran 
understand in this instance this is user-generated content. We 
cannot 100 percent reliably verify its accuracy. We think it 
sounds, smells and checks out to be right.
    Mr. Scott. Let me ask this as my time is winding down. I 
want to ask about your budgets. What are you asking for and 
what do you need in order to do the job?
    Mr. Gedmin. I will be happy to go first, Congressman, and 
turn it over to Dan Austin.
    We have a Broadcasting Board of Governors that is our 
oversight board. They are a Federal agency. They are part of 
the President's budget, and they provide for our needs. In my 
case we are a grantee of this agency. So I would be happy if we 
could refer that question to them, my boss.
    But you were kind to ask, so I will give you a broad 
answer. We, as a company, Radio Free Europe, have a budget of 
just north of $90 million a year. I kept saying I think it is 
cost-efficient. Well, $90 million, if you are an American 
taxpayer with all this good values, information and interest, 
we reached 21 countries from Russia to the Middle East and 
about 25 million people. If I may put it in perspective, our 
$90 million, the budget of PBS in New York City is about $200 
million.
    I think it is really cost-effective what we do, if I may 
say. And if you ask me broadly speaking what our needs are, 
usually it is not very fancy or complicated. Our business is 
driven by--this is back to your question, by the way, how do 
you get those things right? You make sure you have enough money 
to recruit good people, to train good people and to supervise 
good people.
    Mr. Scott. My time is running out, so I want to make sure, 
you are asking for $90 million as a budget.
    Mr. Gedmin. That is our current budget.
    Mr. Scott. And you are into--reaching into 21 countries?
    Mr. Gedmin. That is correct.
    Mr. Scott. And Mr. Austin.
    Mr. Austin. Yes, sir. We are--the fiscal 2010 budget 
request is for $201 million for Voice of America, roughly 
double what Jeff is asking for. That is up slightly from the 
current level of funding. It does reflect several things: One, 
increased programming in some key areas. I mean, Iran, for 
example, we just added 2 hours of original television 
programming. We are trying to fund that internally. We cannot 
do that forever, so we are hopeful that we can put that on a 
more sustained basis.
    Mr. Scott. In how many countries Voice of America?
    Mr. Austin. Forty-five languages, audience of 134 million. 
So we are roughly about 27 percent of the Broadcasting Board's 
overall budget, and roughly 80 percent or so of the total 
audience reached by the BBG.
    Mr. Scott. You said 45 languages. Is that 45 countries?
    Mr. Austin. No, there are fewer countries than that. We 
tend not to look at them as countries, but language groups. But 
there are fewer countries than that.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Wexler. If I may, the 134 million is that which is 
least accurately identifiable. There are countries such as 
North Korea and China where it is not necessarily identifiable.
    Mr. Austin. That is correct.
    Mr. Wexler. And the information which you don't credit with 
additional viewership, but information received in a more ad 
hoc way. As people leave North Korea and so forth, you get 
anecdotal information through interviews. So the number may, in 
fact, be quite higher.
    Mr. Scott. Yes. And I think it is also good for us to add 
that both of these entities are into very difficult, dangerous 
areas where you can't measure as much as you should. So thank 
you very much.
    Mr. Austin. Thank you, sir.
    Mr. Wexler. No, thank you.
    With Mr. Boozman's kind deference, we will go to Mr. Sires.
    Mr. Sires. I will be so kind that I will defer to Mr. 
Delahunt.
    Mr. Wexler. Too much kindness.
    Mr. Delahunt. I appreciate the kindness from both Mr. 
Boozman and Mr. Sires. I will be very brief.
    If you both could submit the surveys that define your 
audiences clearly, and particularly those that you feel are 
accurate. I would like to have an opportunity to review the 
methodology, to know what your target audiences are, your 
listenership, if you will. I think that is important.
    It is my belief that our strength here in this country is 
focused on dissent. Oftentimes one could attend a congressional 
hearing and hear and observe vigorous debate on significant 
issues. We do have a certain capacity, although at times it is 
suppressed, for self-criticism.
    You know, we are at a disadvantage on this panel because 
obviously we don't hear your programming. Does there exist 
independent assessments and appraisals of your programming, 
whether it be the GAO or other groups? If you could be very 
brief in your answers.
    Mr. Austin. The brief answer is yes. Yes, sir, we do. The 
Inspector General's Office, it is part of their usual routine 
rotation, will inspect our language services, for example. 
There is an internal but separate program review.
    Mr. Delahunt. Any outside groups?
    Mr. Austin. We have had GAO look at us and OIG. Outside the 
Federal Government, no, not that I am aware of.
    Mr. Delahunt. Okay. And I presume the same thing is true in 
terms of Radio Free Europe.
    Mr. Gedmin. Congressman, it is the same formula. And I 
think the more of this, the better. This is a tough business. 
As you suggested, we are broadcasting to closed, difficult 
societies in the main, and we are working with journalists who 
come from these countries who have their own----
    Mr. Delahunt. And I understand all of that. My question is 
you have those surveys. I would particularly appreciate the 
opportunity to review those surveys, those assessments, 
particularly the ones that would tend to be critical, because I 
think we can learn from that in terms of fulfilling our 
obligation to conduct oversight.
    Mr. Gedmin. Let me simply specifically add this point, 
nothing to what Dan said, but both of us regularly on an ad hoc 
basis reach out to the best and brightest in the editorial and 
scholarly world to get them to jump in and write a paper, or 
conduct a discussion, or do a little postmortem on what we have 
done, and we can make them available to you also.
    Mr. Delahunt. I appreciate that. I am sure you do, and I am 
sure it does assist you in terms of your mission.
    I guess this would be to Mr. Austin. We have received now 
in the past week several reports coming from a variety of 
groups dealing with Honduras, Reporters without Borders, 
various groups saying that there is a serious suppression of 
the media in Honduras in the aftermath of the coup. What are 
you hearing from the VOA in terms of, and is the VOA responding 
to that particular crisis, that situation?
    Mr. Austin. Yes, we do broadcast in the region. Last week 
was in Central America speaking with a number--I was next door 
in El Salvador and speaking with a number of journalists from 
San Salvador who had gone into Honduras.
    Mr. Delahunt. And what are they reporting?
    Mr. Austin. They were reporting a lot of crackdowns, 
suppression. Being Salvadorans, they were somewhat proud of 
themselves for being much better, in a much freer society than 
their next door neighbors had, and actually credited 
themselves.
    Mr. Delahunt. But by their assessment there is significant 
suppression of the media by the so-called de facto government.
    Mr. Austin. They were very specific. There was suppression 
of the media, but a lot of self-censorship of the media. The 
media in Honduras is apparently not anything close to 
developed. It has either been in the pocket of one special 
interest or another, either worked overtly for the government, 
or was in the pocket of some opposition group.
    Mr. Delahunt. So you would conclude it is a serious issue 
at this point?
    Mr. Austin. Yes, sir, I would.
    Mr. Delahunt. Let me ask you just one final question in 
terms of the programming. Do you, as a matter of course, 
report--again, this goes back to my initial observation--do you 
report on dissent here in the United States on issues that 
obviously impact the opinion of the rest of the world regarding 
the United States, the war in Iraq, for example, or what we do 
in Afghanistan, or our policy? Do you underscore the fact 
that--I think it was stated earlier, I don't know which one of 
you said it, about the American view. Well, the reality is 
there are multiple American views. And I think that is what we 
should, and this is only a personal opinion, want to convey to 
the rest of the world, that a viable democracy means that we 
can have profound disagreements on a particular policy.
    Mr. Austin. Sir, I couldn't agree more. I mean, fundamental 
to our programming is credibility with our audience. People 
around the world know propaganda when they see it. We do not do 
propaganda. We do report on debate and dissent. We are required 
by law--if you look at that VOA charter, it is a public law--we 
are required by law to practice good journalism. As a 
journalist who comes out of the private sector, I find it a tad 
ironic, but it actually works.
    But yes, dissent, disagreement. People around the world, 
that is what they find so engaging about this country, that 
people can dissent. They can lose an election and still stand 
up and say things and not be carted off to the hoosegow, 
absolutely.
    Mr. Delahunt. Thank you very much. I yield back, and I 
thank the gentleman from New Jersey as well as the gentleman 
from Arkansas for their kindness.
    Mr. Wexler. Thank you.
    I guess at this point we will go to Mr. Boozman.
    Mr. Boozman. Thank you, Mr. Chairman.
    Yesterday we had a number of scholars and a number of 
individuals who testified about Iran. And one of the comments 
that they initially brought up said in Iran BBC was listened to 
a great deal, and again were somewhat critical of the efforts 
that we were making. So I would like for you to comment on that 
a little bit.
    I know you mentioned money and resources and things. I 
guess I would just like to know where you think we are going 
with that.
    The other thing that they mentioned was that one of the 
problems they might see is that with it being headquartered, I 
think they said, in Budapest; is that right?
    Mr. Gedmin. We are in Prague.
    Mr. Boozman. In Prague, I am sorry.
    With a section like Iran being headquartered there, that 
they were maybe a little bit more subject to intimidation, some 
of your broadcasters, in the sense that that society is--you 
know, it is a lot more cosmopolitan, and there is a lot more 
coming and going; that it might be more difficult with some of 
your broadcasters either being threatened subtly or indirectly 
or whatever, that maybe they weren't as aggressive as they 
ought to be. So their recommendation was that we ought to think 
about maybe pulling some of that back here so that you could be 
more aggressive in this society versus that society.
    So can you comment on those things for me?
    Mr. Gedmin. Congressman, I am happy to start.
    First of all, I think there is a need for BBC and Voice of 
America and our brand in Iran, it is called Radio Farda, and I 
think they all play complementary roles. I think in each case 
you could probably quibble about this program or that, and if 
anybody raised specific questions about our programming, I 
would be happy to address them specifically.
    I will just take up the one. Our whole headquarters is in 
Prague for reasons of history. After the Cold War we moved from 
Munich to Prague because Vaclav Havel invited Bill Clinton to 
move us.
    It is true that the Iranian regime is quite talented and 
tenacious in finding ways to intimidate people, and they do 
that to our journalists. And we are, in fact, moving some of 
our colleagues here to Washington. I would be happy to engage 
you off line any time on the pros and cons of moving them all 
to Washington. There are about 40 of them. If we did that, of 
course, they would disconnect from the larger company and their 
colleagues, and there may be some advantages, and there may be 
some disadvantages, but it is a thoughtful remark.
    Mr. Austin. Right. The VOA Persian News Network, as we 
style it, is headquartered here in Washington. We have a total 
of about 200 people, part-time contractors and full-time 
employees, and we are broadcasting 8 hours of live television a 
day into the country. So it is a substantial presence. I think 
it is costing the government around $16-17 million a year to do 
that.
    Our British friends just started their television effort 
back, I believe, in March of this year. They are spending 
roughly twice what we are. The BBC has wonderful production 
values. There is no doubt about it.
    It remains to be seen how we are doing competitively. We 
know from our previous research that we had about a 30-percent 
market share in Iran. Now a commercial network would kill for 
numbers like that, believe me, believe me. We did some flash 
research in the turmoil past the election. These results are 
not projectable to the entire country, so I want to be very 
careful here, but the indication we got was about half of the 
people that we did survey were using VOA television as a means 
of getting their information. Now, we know that the BBC was up 
there as well, and they are our competitor, and I absolutely 
agree with Jeff, the more, the merrier. The more voices you 
have, the people of Iran will be the ones who benefit, and that 
really is the idea.
    Mr. Boozman. You know, Dan, you actually had me come over 
and do a live show. If that is something you have not done, Mr. 
Chairman, you will enjoy, and the rest of the panel. But I was 
very impressed by that. I thought the call-ins and e-mails were 
very good, and, again, the ability for the in sync translation, 
all those kind of things. So I would encourage the committee, 
with your group being so close, that that is something these 
guys might enjoy doing.
    Mr. Austin. Congressman, thank you. It is great when we can 
get Members of Congress to go on the call-in shows. You have an 
opportunity. You did it with China, I think. You can do it with 
Iran and other parts of the world where you can actually engage 
in dialogue directly with the people. We hold that out 
obviously to Members and to people in the administration when 
they can do it. It is a great way to keep that conversation 
going.
    Mr. Boozman. Thank you.
    Mr. Gedmin. Mr. Chairman, may I have 30 seconds?
    Now, Dan Austin is my friend, and we are complimentary and 
reinforcing, but we have to have a little competition here. You 
can't only go over to the Cohen Building and do Voice of 
America. Now, we may be in Prague, but we have teleconferencing 
equipment, and you can appear on our program any time of day.
    I just want to mention as a footnote that these Iranians 
who work for us in Prague, who are subject to intimidation, 
they do a great job. And I tell you two things. Where not so 
long ago the Government of Iran had fuel rationing, and these 
long lines at gas stations sprouted up everywhere, we had quiet 
freelancers inside of the country who would go to the gas lines 
and stick a microphone under people's noses and say, what are 
you doing here, what is this all about? One guy said, I don't 
know, because we are an energy-rich country, and I'm waiting 5 
hours for gas for my car, and my Government is giving my tax 
money to Hezbollah.
    I tell you recently when the Government of Iran or in 
Tehran decided that it would be illegal to have pet dogs walked 
in parks because it was not consistent with the ruler's version 
of Islam, we did a report on that. We were the only one. And 
all of sudden we found out very quickly from our audiences that 
it wasn't just pet owners who were upset, the police in Tehran 
were upset that they had to enforce these foolish laws.
    So just parenthetically, our guys in Prague who are 
subjected to these threats and blackmail, they do some pretty 
courageous work.
    Mr. Wexler. Thank you.
    Mr. Sires.
    Mr. Sires. Yes, thank you very much for being here.
    How do you determine--I know you talked a little bit about 
it--how much penetration do you have into a country? They are 
always saying they are trying to block you, that they make all 
these efforts, the intimidation, but how do you really measure 
or determine how much you get into that country? Is there such 
a measuring device?
    Mr. Austin. Yes, sir, and it does vary. I think, as we 
mentioned earlier, in the case of North Korea, which is very 
difficult, the only way we get any information about listening 
habits is by interviewing people who come out of North Korea 
into China. Sometimes there is a business relationship there, 
so these are people who are coming out and going back in. Other 
times it is people who are defecting. It is not reliable or 
projectable, but it is the only intelligence that we can get.
    In other places, however, including Iran, where you have a 
number of people who have telephones and all that sort of 
stuff, we do conventional survey techniques, random samples. We 
will back that up with qualitative research where we will get 
focus groups, if you will, of people to comment on specific 
programs. We will use outside experts to do the same thing.
    But in terms of projecting the audience, it does vary. We 
do contract with an outside, third-party research firm, 
InterMedia, which, by the way, does research for RFE/RL, but it 
also does research for other international broadcasters. So 
they have an arm's-length and professional approach.
    Again, we do understand the difficulty of extracting 
meaningful information from some of these societies. It is 
easier in some places than others. I wish I had a one-size-
fits-all answer, but I don't, sir.
    Mr. Sires. The reason I ask that question is because Radio 
Marti, you know, there is always the big question here of the 
funding of Radio Marti. The only reason I know there is 
penetration is because every time I have been on the radio, 
sooner or later in the next week or so I am touted as a 
terrorist in the papers.
    So, you know, it is always the question of how much 
penetration you do get to these countries. What technologies 
are you using to sidestep that? Are you constantly looking into 
that or----
    Mr. Austin. Yes, sir, we are. I think in the case you 
mentioned, Cuba, the Martis, this is a classic example. We have 
done telephone research in Cuba. The difficulty is only about 
12 percent of the population have telephones. And the people 
who tend to have telephones tend to be associated with 
government. So that doesn't necessarily give you a lot of 
reliable data.
    We also interview people who are coming out of the island 
in Miami. We worked out an arrangement with the immigration 
folks where they will let us administer surveys about did you 
listen to Radio Marti or see TV Marti. So that helps us a 
little bit, but that is not projectable to the population 
either.
    In terms of overcoming efforts to censor us, we are jammed 
in Cuba, no doubt about it. We take different methods to 
overcome----
    Mr. Sires. I would assume Venezuela is doing the same 
thing.
    Mr. Austin. Venezuela is starting to. They are not actively 
jamming us yet. What they are doing is taking control over the 
means of the distribution of most media, and they are trying to 
work it that way. I am not aware of them actively jamming some 
of our short-wave signals, for example, yet. They could; they 
have the capability to do that. Typically the way we respond is 
by increasing the number of frequencies.
    Jamming is very expensive, the North Koreans are bedeviled 
by it because it is very fuel- and oil-intensive to run those 
jamming transmitters, for example.
    Satellite distribution is an issue, again, with Iran, where 
we were jammed first on the ground. They literally sent trucks 
with microwave equipment through neighborhoods, which is very 
dangerous if you were living in those neighborhoods to get 
microwaved like that, the so-called downlink jamming, which 
again we combatted by changing directional signals.
    They then began jamming us at the satellite source, which 
is a much more serious offense. This got the interest of our 
Space Command folks out in Colorado; you know, the guys who 
only talk in first names and all that. What we did there was 
simply add the number of satellites that we were using to reach 
Iran. Eventually they backed down from that. But it is a spy-
versus-spy, cat-and-mouse kind of game in these places.
    Mr. Sires. And of the money that you requested, are you 
going to increase funding for your efforts in South America and 
Central America to combat the obvious Chavez influence?
    Mr. Austin. We would very much like to do that. Where we 
are in Latin America, I think, is reexamining all of our 
current programming. I am frankly not satisfied with what we 
are doing now, but before I go ask the taxpayers for more 
money, I want to make sure we have a really good plan to 
address a changing media situation there.
    Mr. Sires. It seems already Chavez is already ahead of us 
in terms of promoting his version.
    Mr. Austin. Absolutely. This Telesur operation of his, as I 
mentioned, is really quite impressive and has come out of 
nowhere in a relatively short amount of time.
    Mr. Sires. And what are we doing to combat that with the 
resources that we have?
    Mr. Austin. With the resources that we have, I think we are 
trying to--and one of the things we are asking for in the 2010 
budget is some prototype money to come up with new television 
approaches to that market which would be much more significant 
than the efforts we are making now.
    Mr. Sires. And TV Marti has the same problem, I assume, as 
Radio Marti.
    Mr. Austin. Yes, the same difficulty in terms of jamming. 
The Cuban Government doesn't like either one of them. We know 
they are listened to because the Cuban Government constantly 
complains to the ITU. This is the international group that 
regulates frequencies. They are always complaining that we are 
interfering with their broadcast.
    Mr. Sires. There was an issue of a plane that they used to 
direct television into Cuba. That was more effective?
    Mr. Austin. Yes, sir, it was. We did have basically a 
balloon that we put up and broadcast from that balloon, but it 
was stationary and very easy to jam. The aircraft, a Lockheed 
1, which is able to broadcast, I think, over UHF and VHF 
channels, flies in a pattern, it is like a lazy 8, but in U.S. 
waters, but makes it very difficult for the Cubans to at any 
one time completely jam that broadcast.
    Mr. Sires. The reason I ask is because I just had a 
relative come over, and I was shocked to tell how much she knew 
about Obama, which was shocking to me.
    Mr. Austin. That is great.
    Mr. Sires. Thank you. You do a great job. Thank you very 
much.
    Mr. Austin. Thank you.
    Mr. Wexler. Thank you Mr. Sires.
    I would like to follow up with two points, given the 
conversation with Mr. Sires in terms of the satellite issue. My 
understanding over the July 4th weekend, there were reports of 
cyber attacks on a number of U.S. Government computer 
operations, including the VOA, and that the government seemed 
to have the capability to respond fairly quickly. And I would 
inquire of both of you gentlemen, how prevalent are these cyber 
attacks on your particular facilities? And do you have the 
capability as you understand it to respond as well as you would 
like? And if not, what do we need to help you?
    And second on a totally different note, the GOA and others 
have reported in a very extensive fashion the problem of anti-
Americanism or the phenomenon of anti-Americanism and its 
impact one way or another on U.S. Foreign policy, its impact on 
American economic interests, the ability of our military to 
pursue its goals most effectively, and also the security of 
individual Americans as they travel around the world.
    I was wondering if in the context of international 
broadcasting, if you could give us a sense in terms of what the 
Obama administration is seeking to do in this regard. Do you 
see any impacts in terms of the first 6 months of the 
administration? Are we making any headway? Any thoughts that 
you may have in this regard?
    Mr. Austin. Yes, sir, Mr. Chairman. Let me address the 
cyber attacks issue first, if I may.
    Yes, over that holiday weekend we were hit by a really 
substantial denial-of-service attack. We encounter cyber 
attacks all the time as a daily occurrence. This was a whole 
order of magnitude different from anything we have experienced. 
It took us down for a good 3 or 4 hours on Sunday, that is 
Sunday, until we figured out where this might be coming from. 
We determined it was Korea, and we did sort of cut off Korea 
and isolate that part of the system so that our users in that 
part of the world were without VOA; they would either get an 
error message when they went onto our Web site, or they would 
get old material. But we quickly--because we were able to 
isolate that, we continued service to the rest of our worldwide 
audience.
    We have our countermeasure which we put into place which 
was basically to spread our servers content over 28,000 
different servers operated by a contractor that we use, and 
that makes it very, very difficult for one of these distributed 
denial-of-service attacks to be sustained.
    Did we learn something from the experience? We did. We need 
to be better at predicting early on what is going on, and we 
need to be able to respond more quickly. We will never 
successfully--don't say ``never''; I am not an electrical 
engineer--but everything I have been told, we will never be 
able to prevent a cyber attack from happening, but we can 
offset it and do a better job than we have been doing in that 
regard. But that is a reality in this digital age that we are 
going to have to live with.
    I wanted to say one thing about the impact, the second 
question about the impact of some of the things the Obama 
administration is doing, and Jeff can certainly weigh in on 
that. The President has been on the road giving some very 
successful and important, I think, addresses, talking to the 
Russians, Rome at the G-8, Ghana in Africa. We have been aware 
of the White House efforts to use new media in those addresses 
to connect with those audiences. We are aware of them because 
we do it ourselves and obviously want to broadcast and talk to 
our audiences about that as well.
    I have to say, from our observation, they are learning that 
they have been, I think, pretty successful in really beginning 
to take advantage of that, and that does reach, by definition, 
most younger people, and if that is your target audience, that 
is an important group to get after.
    Mr. Wexler. Thank you.
    Mr. Gedmin. Thank you, Mr. Chairman.
    I don't mean to be so positive, but first I agree with 
everything Dan Austin said, as always.
    To the cyber attacks, we experienced a very significant 
cyber attack last year, a serious disabling one, and we got 
tremendous support from colleagues in Washington, from Dan at 
VOA, from the Defense Department, and, if I may add, from the 
tiny democratic nation of Estonia, a Baltic country, because 
they were a victim several years ago and decided to become 
experts on this, and they are experts. If I may say, I think 
they were kind of pleased that big-shot Americans would come to 
Estonia and say, we need your help. But they certainly provided 
it. And the President of the country, Tom Ilves is President, 
is a former Radio Free Europe reporter.
    You know better than I, it is a very complex subject, if I 
may say, and we have had anti-Americanism since the founding of 
this country. It comes in all varieties. One of Germany's great 
poets, 19th century posts, Heinrich Heine, penned a number of 
lyrics that were terribly anti-American, before George W. Bush, 
before the Cold War, in the 19th century.
    But to your very specific question, two points. The message 
is important from the U.S. perspective, but so is the 
messenger. And don't think there is any doubt that the American 
President, whether you are Republican or Democrat--there isn't 
any doubt that because of his intellect and his emotional 
intelligence and his charisma as a messenger, it helps, I 
believe that. But I also believe that will only carry us so 
far, and that will not be a solution, and 2 and 3 years into 
this administration, I think we are going to still be grappling 
with real anti-Americanism both in Europe, where we have 
allies, and especially in developing countries as well. So I 
think it is a good start, but I don't think it is going to be 
enough.
    Mr. Wexler. As you can tell from the bells, a whole series 
of votes have been called. As far as I am concerned, perfect 
timing. You gentlemen have provided, I think, an extraordinary 
forum this morning. I am deeply grateful, Dr. Gedmin and Mr. 
Austin, for all that you do 365 days a year, but especially 
that you took your time this morning to share what your 
respective organizations do year in and year out. I am deeply 
grateful. I think we have done your audiences and our missions 
and your missions some good this morning, and I thank you very 
much.
    Mr. Austin. Thank you.
    Mr. Gedmin. Thank you.
    Mr. Wexler. We are at this point adjourned. Thank you very 
much.
    [Whereupon, at 12:16 p.m., the subcommittee was adjourned.]
                                     

                                     
















                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record Notice.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               
                               Wexler statement 
                               
                               Gallegly statement 
                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 <all>

</pre></body></html>
